<html>
<title> - INTERRUPTING NARCO-TERRORIST THREATS ON THE HIGH SEAS: DO WE HAVE ENOUGH WIND IN OUR SAILS?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
   INTERRUPTING NARCO-TERRORIST THREATS ON THE HIGH SEAS: DO WE HAVE 
                       ENOUGH WIND IN OUR SAILS?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 29, 2005

                               __________

                           Serial No. 109-99

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-892                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 29, 2005....................................     1
Statement of:
    Utley, Ralph, Acting U.S. Interdiction Coordinator; Admiral 
      Dennis Sirois, Assistant Commandant for Operations, U.S. 
      Coast Guard; Admiral Jeffrey J. Hathaway, Director, Joint 
      Interagency Task Force South; Charles E. Stallworth II, 
      Acting Assistant Commissioner, Office of Air and Marine 
      Operations, U.S. Customs and Border Protection; and Thomas 
      M. Harrigan, Chief of Enforcement Operations, Drug 
      Enforcement Agency.........................................    13
        Harrigan, Thomas M.......................................    43
        Hathaway, Admiral Jeffrey J..............................    27
        Sirois, Admiral Dennis...................................    21
        Stallworth, Charles E., II,..............................    37
        Utley, Ralph.............................................    13
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     9
    Harrigan, Thomas M., Chief of Enforcement Operations, Drug 
      Enforcement Agency, prepared statement of..................    45
    Hathaway, Admiral Jeffrey J., Director, Joint Interagency 
      Task Force South, prepared statement of....................    29
    Sirois, Admiral Dennis, Assistant Commandant for Operations, 
      U.S. Coast Guard, prepared statement of....................    23
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Stallworth, Charles E., II, Acting Assistant Commissioner, 
      Office of Air and Marine Operations, U.S. Customs and 
      Border Protection, prepared statement of...................    39
    Utley, Ralph, Acting U.S. Interdiction Coordinator, prepared 
      statement of...............................................    17


   INTERRUPTING NARCO-TERRORIST THREATS ON THE HIGH SEAS: DO WE HAVE 
                       ENOUGH WIND IN OUR SAILS?

                              ----------                              


                        WEDNESDAY, JUNE 29, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:12 p.m., in 
room 2247, Rayburn House Office Building, Hon. Mark Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, McHenry, Cummings, Brown-
Waite, and Norton.
    Staff present: Marc Wheat, staff director and chief 
counsel; David Thomasson and Pat DeQuattro, congresional 
fellows; Malia Holst, clerk; and Tony Haywood, minority 
counsel.
    Mr. Souder. The subcommittee will come to order.
    Good afternoon and thank you all for coming. Today we are 
going to examine how drugs make their way through the transit 
zone prior to arriving in Mexico for shipment into the United 
States.
    Let me begin by conveying my intense displeasure and 
frustration with the manner in which USSOUTHCOM has worked with 
Congress and our subcommittee. Similar to the treatment 
Congress receives from USCENTCOM, Southern Command has avoided 
responding to congressional oversight of its counterdrug 
responsibilities. The subcommittee asked five simple questions 
for the record after a subcommittee visit to USSOUTHCOM's 
headquarters in January.
    The answers to these simple questions were known by the 
Department of Homeland Security agencies months ago, yet 
USSOUTHCOM has not chosen to share these answers with 
Congress--perhaps the decision was to wait until 6 months after 
today's hearing before transmitting the answers to the 
subcommittee questions, perhaps we will never get the answers. 
This lack of cooperation, combined with the commitment to 
control rather than support Interagency counterdrug efforts 
leads me to question DOD's drug interdiction motivations.
    That said, this hearing may serve to change the course of 
future drug funding to enable the execution of transit zone 
drug interdiction operations. But let me say that the big 
picture in the transit zone is disturbing. For the first time, 
our actionable intelligence exceeds our interdiction 
capabilities in the transit zone. In other words, the Federal 
Government knows of specific boatloads of drugs heading north 
that we cannot intercept because of the lack of interception 
assets in the Caribbean and the Eastern Pacific.
    The intelligence breakthrough is a recent development 
resulting from the very successful Operation Panama Express, an 
interagency intelligence-driven program managed by the 
Departments of Justice and Homeland Security. Due to this 
impressive intelligence cuing, the Joint Interagency Task Force 
[JIATF], South now has improved insight into where, when, and 
how much cocaine will be smuggled through the transit zones. 
All of our Federal agencies need a special ``well done'' from 
Congress for record cocaine seizures in 2004. The hearing today 
is not meant to criticize, but rather look to improve on major 
successes in U.S. drug interdiction efforts.
    Before I detail some more of these concerns, let me just 
add, I have been going through this testimony the last couple 
of days, part of our frustration, not just here with SOUTHCOM, 
with CENTCOM, and multiple other agencies, is we understand 
everybody's intense budget pressures and OMB has put tremendous 
pressures on every agency. Those of us, like myself, who 
supported efforts in Afghanistan, in Iraq understand that the 
military is stretched very thin.
    But we represent the taxpayers. Appropriations come from 
this body and are dependent upon having accurate facts upon 
which to make those appropriations decisions; it is not an 
executive branch decision. We cannot make intelligence 
decisions without correct information. It may mean we just do 
not have enough money to do all this.
    But that is what we are hired to do. And if we cannot get 
adequate information, we do not know how best to allocate anti-
drug resources and what our tradeoffs are; how many are dying 
in this area. How can we do that if we do not have adequate 
data.
    In most cases and in most agencies, bluntly put, we have 
not found the problem with the individual agencies. The 
question is what kind of systemic problem do we have right now 
sitting on information being released to Congress because many 
people perceive that releasing the information to us may lead 
to increased spending, or pressures for spending, or be used 
for partisan advantage. The fact is, I am a partisan for this 
administration and I cannot get the adequate data, not only in 
narcotics, but in agency after agency, and there is a building 
frustration that I have vented already this morning at the 
White House.
    While the accomplishments of Panama Express should not go 
unnoticed, our asset shortfalls in the transit zone raise 
serious concerns about our ability to interdict known smuggling 
events. On May 10, 2005 this subcommittee held a hearing 
entitled, ``2006 DOD Counternarcotics Budget: Does It Deliver 
the Necessary Support?'' In the hearing, Marybeth Long, Deputy 
Assistant Secretary of Defense for Counternarcotics, testified 
that, ``The Navy's problem with the P-3s, which affects not 
only the Department's counternarcotics assets, but the 
availability of maritime patrol aircraft worldwide, has been 
well documented and discussed.''
    Regrettably, the Navy failed to properly anticipate the 
inevitable fate of an old airframe employed primarily in a 
corrosive, salty air environment. The Navy's P-3 replacement is 
not projected to begin service until 2012, with an uncertain 
date for employment in counterdrug activities in the transit 
zone.
    Through the insistence of the U.S. Interdiction Coordinator 
and the JIATF-South commander, DHS has stepped up maritime 
patrol aircraft flight hours to backfill the loss of DOD 
assets. With DHS taking on a bigger role in transit zone 
interdiction operations, I would like to focus our discussion 
today on the following five topics that will affect future 
counterdrug operations in the transit zone.
    First, while I support the increased transit zone flight 
hours flown by the Coast Guard and Homeland Security's Air and 
Marine Operations [AMO], I question whether the extra hours are 
sustainable and am interested in the costs for the increased 
operational tempo. According to JIATF-South figures, AMO flew a 
total of 578 hours in the transit zone in calendar year 2003. 
Now we are told that AMO has increased this figure to over 800 
hours per month in 2005.
    Similarly, the Coast Guard has also significantly increased 
their flight hours to meet the loss of Navy P-3 counterdrug 
flight hours. Like the Navy, both the Coast Guard and AMO fly 
old airframes that have finite lives. The increase of flying 
hours significantly impacts the agency's ability to operate in 
the future. Yet only the Coast Guard has an improved 
comprehensive modernization plan that addresses these future 
shortfalls.
    Second, Section 124 of Title 10 states, ``The Department of 
Defense shall serve as the single lead agency of the Federal 
Government for the detection and monitoring of aerial and 
maritime transit of illegal drugs into the United States.'' The 
language for this law was framed in the National Defense 
Authorization Act of 1990-91. Federal law enforcement's ability 
to engage in counterdrug operations has significantly matured 
since 1989, when this legislation was passed.
    Since then, DOD's responsibilities have changed, and 
Congress formed the Department of Homeland Security, combining 
the Federal law enforcement agencies that currently supply the 
bulk of the aviation and maritime assets deployed in the 
transit zone. Consequently, I believe that it is now time that 
the Department of Homeland Security should take on the primary 
responsibility for counterdrug detection and monitoring from 
the Department of Defense.
    Third, the push to make the Joint Task Force North a Joint 
Interagency Task Force, another JIATF, will potentially place 
DOD as an overseer of domestic law enforcement interdiction 
programs. Lack of unity within the interagency has allowed DOD 
to take the lead in areas that have traditionally been 
accomplished by law enforcement agencies. Therefore, it is 
imperative that DHS and the Interagency should become more 
involved in the future JIATF process.
    In order to have an effective joint interagency program, 
Federal law enforcement agencies must be willing to man JIATF 
South and any future JIATFs with employees capable of filling 
critical command and operations specialist positions. 
Conversely, the JIATFs must provide administrative and 
logistical incentives for Federal law enforcement agencies to 
assign qualified employees to their locations.
    Fourth, the transit zone, like the southwest border, lacks 
a strategic, comprehensive, layered, interagency plan that 
incorporates the operational demands of post-September 11th 
operations and the recent actionable intelligence improvements. 
Without a national interdiction plan, agency roles and 
responsibilities are not properly delineated resulting in a 
haphazard way of requesting national air and marine assets.
    The U.S. interdiction coordinator laid the groundwork for 
this strategy by forming the Interdiction Planning and Asset 
Group. Unfortunately, the latest report for Interdiction Asset 
Requirements is out of date and does not truly reflect the 
current enhanced intelligence capabilities, nor does it take 
into account a post-September 11th environment.
    Fifth, DHS air responsibilities, like airspace security, 
potentially take flight hours away from transit zone 
operations. Currently, it is unclear which DHS agency will be 
responsible for airspace security in the National Capitol 
Region and special security events. Both DHS candidates for the 
responsibilities are the major transit zone asset providers; 
namely, the U.S. Coast Guard and the Office of Air and Marine 
Operations. If the current air assets in the National Capitol 
Region were diverted to counterdrug operations in the transit 
zone, DEA and DHS could perform interagency interdiction 
operations in places like Guatemala, where increasing amounts 
of cocaine land from transit zone maritime and air smuggling 
ventures.
    Today we have a panel of very experienced witnesses to help 
answer these and other questions posed by the subcommittee. We 
are pleased to welcome Mr. Ralph Utley, Acting U.S. 
Interdiction Coordinator at DHS; Admiral Dennis Sirois, we have 
met many times and I stumble over your name each time, U.S. 
Coast Guard's Assistant Commandant for Operations; Admiral 
Jeffrey Hathaway, Director, Joint Interagency Task Force South; 
Mr. Charles Stallworth, Customs and Border Protection's Acting 
Assistant Commissioner for the Office of Air and Marine 
Operations; and Mr. Thomas Harrigan, Drug Enforcement 
Administration's Chief of Enforcement Operations.
    We look forward to your testimony and insight into this 
important topic.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T4892.001
    
    [GRAPHIC] [TIFF OMITTED] T4892.002
    
    [GRAPHIC] [TIFF OMITTED] T4892.003
    
    Mr. Souder. As I mentioned earlier, I am going to turn the 
gavel over to our committee's vice chairman after the initial 
statements because I have a markup going on in another 
committee and several floor votes; I will be kind of in and out 
of this hearing. I will take all the statements with me to make 
sure I read it and will be doing plenty of followup. You always 
can be assured to hear from our office, probably more than you 
want many times.
    Mr. Cummings, do you have an opening statement?
    Mr. Cummings. It will be very brief, Mr. Chairman. Mr. 
Chairman, I want to thank you for holding this hearing to 
examine the efforts to interdict illicit drug shipments bound 
for the United States by way of maritime smuggling routes.
    Southwest border States are primary points of entry for 
major illicit drug threats, such as Colombian and Peruvian 
cocaine, South American and Mexican heroin, Mexican 
methamphetamines, and Mexican and Colombian marijuana. Before 
drugs from South America reach the border, however, they must 
be transported to the United States through maritime transit 
zones, which encompass the Caribbean, the Gulf of Mexico, the 
eastern Pacific Ocean.
    The majority of drugs are transported by sea, by commercial 
means, including high speed, go-fast boats capable of carrying 
up to 2 tons of cocaine. The detection and apprehension of 
these vessels represents a difficult challenge for the Untied 
States and international interdiction agencies and requires the 
synergistic use of actionable intelligence, interagency 
communication, and assets and personnel capable of amounting an 
effective response.
    The Department of Defense is the lead agency for detecting 
and monitoring aerial and maritime transit of illegal drugs 
through the transit zone into Puerto Rico and the Virgin 
Islands and across the U.S.' southwest border into the mainland 
United States. Based at the Naval Air Station in Key West, FL, 
Joint InterAgency Task Force South conducts counter illicit 
drug trafficking operations to detect, monitor, and handoff 
suspected illicit trafficking targets, promotes security, 
cooperation, and coordinates country team and partner nation 
initiatives in order to defeat the flow of illicit traffic.
    In addition to DOD, the agencies that participate in the 
JIATF-South are the Drug Enforcement Administration, U.S. 
Customs and Border Patrol, Defense Intelligence Agency, and the 
Federal Bureau of Investigations. Cooperation and intelligence 
sharing among these agencies through JIATF-South and in other 
contexts is critical to U.S. efforts to stop illegal drugs 
before they reach our southern border and ports of entry 
through the country.
    Today's hearing offers a very valuable opportunity to hear 
from key officials in agencies that play a vital role in U.S. 
interdiction efforts concerning their successes, remaining or 
emerging challenges, and the need for additional or upgraded 
resources.
    With that said, I want to welcome all of our witnesses and 
thank all of them for their appearance here today. I look 
forward to the testimony. Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T4892.004

[GRAPHIC] [TIFF OMITTED] T4892.005

[GRAPHIC] [TIFF OMITTED] T4892.006

[GRAPHIC] [TIFF OMITTED] T4892.007

    Mr. Souder. Thank you, Mr. Cummings. Mr. McHenry, do you 
have any opening comments?
    Mr. McHenry. Thank you, Mr. Chairman. I certainly 
appreciate you all being here today. I look forward to the 
panel discussion and your testimony.
    I think it is important that we look at the resources we 
have. This is not a moment to necessarily rap you on the 
knuckles. It looks as if we have had increased intelligence-
gathering operations and we actually have more intelligence to 
deal with, and so we have a better opportunity to catch drug 
traffickers in the process. We want to make sure that you have 
the resources and infrastructure in place so that we can 
actually catch those bad guys when we have the opportunities. 
And so I look forward to hearing your testimonies and your 
ideas in this regard.
    I certainly appreciate your making the time to be here 
before us. I am sure, looking at you and looking at your 
backgrounds, you have done this a few times before and it 
certainly is as exciting as it always is. So thank you so much 
for being here and we hope to keep you awake for the remainder 
of the hearing. Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record. That any answers provided by the witnesses also be 
included in the record. And without objection, it is so 
ordered.
    I also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members may be included in 
the hearing record, and that all Members be permitted to revise 
and extend their remarks. Without objection, it is so ordered.
    As an oversight committee, it is our tradition to swear all 
the witnesses. So if you will each stand and raise your right 
hand.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    I am now going to turn the hearing over to our 
distinguished vice chairman, Mr. McHenry. I will be in and out 
depending on how the voting is going.
    Mr. McHenry [presiding]. Mr. Utley, you may proceed.

      STATEMENTS OF RALPH UTLEY, ACTING U.S. INTERDICTION 
 COORDINATOR; ADMIRAL DENNIS SIROIS, ASSISTANT COMMANDANT FOR 
  OPERATIONS, U.S. COAST GUARD; ADMIRAL JEFFREY J. HATHAWAY, 
   DIRECTOR, JOINT INTERAGENCY TASK FORCE SOUTH; CHARLES E. 
STALLWORTH II, ACTING ASSISTANT COMMISSIONER, OFFICE OF AIR AND 
  MARINE OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION; AND 
   THOMAS M. HARRIGAN, CHIEF OF ENFORCEMENT OPERATIONS, DRUG 
                       ENFORCEMENT AGENCY

                    STATEMENT OF RALPH UTLEY

    Mr. Utley. Representative McHenry, Ranking Member Cummings, 
distinguished members of the committee, I am honored to appear 
before you today as the Acting U.S. Interdiction Coordinator. I 
also serve as the Acting Director of the Office of 
Counternarcotics Enforcement in the Department of Homeland 
Security.
    We have achieved record levels for transit zone cocaine 
interdiction, vessel seizures, and arrests in each of the past 
2 calendar years. Specifically, in the transit zone, we have 
removed 210 metric tons of cocaine bound for the United States 
in 2003 and 248 metric tons in 2004. Cocaine seizures and 
removals in 2004 were approximately twice the seizures and 
removals of 1999. Those record levels of removals have occurred 
while our Nation is fighting two wars overseas and has taken on 
new duties to stop terrorists from entering the United States. 
The credit for these achievements goes to the entire 
counterdrug community who is working closer together and 
synergistically attacking the traffickers where they are most 
vulnerable. Let me discuss a few of the key factors that have 
improved interdiction.
    First, the Department of Defense's leadership through Joint 
Interagency Task Force South has been key. In addition, the 
rest of the U.S. interdiction community has invested in this 
Task force which is producing great dividends. For more than 15 
years the counterdrug community has worked to build this Task 
Force which has become a worldwide model for joint interagency 
and international cooperation. There have been many changes 
along the way, the most recent being the establishment of the 
Joint Operating Area. The Joint Operating Area has improved 
synergy, unity of command, and operational efficiency. Joint 
Interagency Task Force South now has total responsibility for 
the primary south to north drug trafficking threat vectors from 
South America. Establishing the Joint Operating Area makes 
sense, and I applaud those who made it happen.
    We have long realized the value of actionable intelligence. 
For years, our ships and aircraft patrolled vast expanses of 
ocean, usually without the benefit of good intelligence. Today 
our forces often have real-time, actionable intelligence so 
that they may narrow their focus and improve their probability 
of detection. The intelligence community, working in close 
concert with the law enforcement investigators, has made 
remarkable strides toward understanding trafficking 
organizations, patterns, and activities.
    In particular, Operation Panama Express, a combined OCDETF 
task force with representatives from the Departments of 
Justice, Homeland Security, and Defense, has become a model of 
interagency partnering. Panama Express-led investigations are 
developing intelligence leads that support more interdictions. 
JIATF-South has become a full partner with founding members 
FBI, ICE, and DEA. At the same time, interdictions are leading 
to the successful prosecutions of both maritime transporters 
and higher level drug traffickers. Enhanced drug intelligence 
has allowed interdictions, investigations, and prosecutions to 
support each other like never before.
    In years past, when we successfully detected a smuggling 
vessel, we often could not stop them or find the drugs. Today, 
front-line interdictors have better equipment and capability. 
The Coast Guard's armed helicopters and over-the-horizon boat 
programs have dramatically improved end-game results. The 
French and British helicopters are also now armed, and the U.S. 
Navy, in conjunction with the Coast Guard, is working to arm 
their sea-based helicopters. We have also improved boarding 
tactics and equipment that increase the odds of finding drugs 
on fishing vessels.
    We do not stop with a successful interdiction. In fact, 
interdiction directly supports new investigations and 
prosecutions. Under the leadership of the Justice Department, 
traffickers are being convicted with stiff sentences which in 
turn facilitates better intelligence and awareness as to how 
the traffickers are operating.
    The support provided by our international partners is also 
critical to transit zone interdiction successes. JIATF South 
has full-time liaisons from 10 countries in the hemisphere and 
communicates and coordinates transit zone operations directly 
with host nations operations centers. Currently, France and the 
United Kingdom deploy and use their surveillance aircraft, 
armed helicopters, and surface ships in counterdrug missions. 
The British NIMROD, a highly capable four-engine, long-range 
maritime surveillance aircraft, has been especially effective 
in detecting and tracking drug smuggling vessels. Our Dutch 
allies continue to provide strong support in the Caribbean. The 
Canadian government is working with the U.S. Southern Command 
and Joint Interagency Task Force South to coordinate future 
Canadian P-3 aircraft deployments to the Caribbean.
    This committed international and interagency effort is 
essential to transit zone operational success. International 
cooperation also has been critical in eliminating seams that 
traffickers once exploited. The United States now has 26 
maritime bilateral agreements that have put the smuggler on the 
defensive. The smugglers now have less time to react to and 
avoid law enforcement, and we are able to board in time to find 
contraband and evidence to support prosecutions.
    Maritime patrol aircraft [MPA], are key to transit zone 
interdiction operations. MPA are currently the only persistent 
wide-area surveillance platform that we can covertly detect, 
monitor, and track smugglers and support maritime end-game 
operations. In calendar year 2004, MPA participated in 73 
percent of the cocaine removal events from noncommercial 
maritime conveyances in the transit zone. In the fourth quarter 
of last year, these figures rose to 91 percent.
    Last year we suffered from a reduction in long-range MPA 
capability. Available MPA flying hours were significantly 
reduced due to unexpected wing corrosion in the U.S. Navy's P-3 
fleet and the withdrawal of Netherlands P-3s from the 
Caribbean. Today the situation has improved. Customs and Border 
Protection P-3 hours have been funded to allow a 400 hour per 
month increase to transit zone operations; the Coast Guard has 
several initiatives in the President's fiscal year 2006 budget 
that will significantly increase C-130 hours in support of 
JIATF-South; and the U.S. Air Force has deployed E-3s to 
support the Air Bridge Denial program, freeing CBP aircraft for 
maritime patrol operations; DOD is supporting British NIMROD 
operations in Curacao; the U.S. Navy has improved the 
operational on-station time of their P-3s; and DOD is working 
to add Canadian Auroras to the effort. Looking forward, we need 
strong support from all of the force providers, and I am 
encouraged that they will deliver.
    Let me conclude by saying that we must sustain the pace of 
these past 2 years and find ways to increase pressure on the 
traffickers. I have placed a priority on seeking alternatives 
that will further increase protection, monitoring, tracking, 
and interdiction capabilities in the transit zone. The USIC 
will continue to engage the entire interdiction community and 
find innovative and aggressive ways to improve our capabilities 
and operational effectiveness. We will support those strategies 
and operations that are working and keep the pressure on all 
fronts. We will continue to asses our efforts and report our 
progress to Congress.
    Thank you very much, and I look forward to answering your 
questions.
    [The prepared statement of Mr. Utley follows:]

    [GRAPHIC] [TIFF OMITTED] T4892.008
    
    [GRAPHIC] [TIFF OMITTED] T4892.009
    
    [GRAPHIC] [TIFF OMITTED] T4892.010
    
    [GRAPHIC] [TIFF OMITTED] T4892.011
    
    Mr. McHenry. Gentlemen, just to let you all know, your full 
testimony will be entered into the records. Going forward, if 
we could try to stick with about a 5-minute time limit and you 
can summarize your testimony and hit the highlights.
    Mr. Utley, my apologies for not giving you that guidance 
before. We certainly appreciate your testimony. I just want to 
make sure that the other gentlemen are aware of it as well so 
we can get to questions. Thanks so much.
    Admiral Sirois.

               STATEMENT OF ADMIRAL DENNIS SIROIS

    Admiral Sirois. Thank you, Mr. Chairman and distinguished 
Members. It is an honor to represent the Coast Guard men and 
women before you here today. I do have a written statement that 
I would like to summarize very shortly.
    The Coast Guard's counterdrug mission is the interdiction 
and seizure of illegal drugs in the transit zone. Although the 
Coast Guard seizes annually almost 54 percent of all cocaine 
seized by Federal agencies, this record could not have been 
attained without our interagency partners and international 
partners and the specific competencies each one of those 
agencies bring. Working closely with our interagency and 
international partners, we provide a continuous, coordinated, 
sustained law enforcement presence in the 6 million square mile 
transit zone and maritime approaches to the United States.
    In fiscal year 2004, the Coast Guard and our partners 
seized or removed over 350,000 pounds of cocaine from the 
illegal drug trade, plus 108,000 pounds were lost to smugglers 
due to jettisoning. This includes the seizure of the fishing 
vessel LINA MARIA and its load of 33,000 pounds of cocaine, the 
Coast Guard's single event record to date. I would like to note 
that as of today the Coast Guard has seized 191,933 pounds of 
cocaine, again working with our great interagency partners.
    STEEL WEB is the Coast guard long-range strategy to advance 
the national goal of attacking the economic basis of the drug 
trade and is an important part of the coordinated, 
comprehensive interagency effort supporting the National Drug 
Control Strategy supply reduction goal. This comprehensive 
approach to drug interdiction is summarized in three pillars: 
First, effective presence, which is a strong and agile presence 
informed by intelligence and law enforcement information; 
second, a regional engagement with the interagency and 
international law enforcement partner nations which has 
resulted in 26 bilateral agreements and a number of combined 
operations with these countries; and third, an end-game must 
exist. The phenomenal success of our HITRON helicopters in 
stopping the go-fast threat is key, but the smugglers are 
flexible and adaptive. To have an effective end-game, the Coast 
Guard must obtain and field the latest technologies, and 
develop new techniques to counter this ever changing threat.
    What is troubling to the Coast Guard is the recent House 
Budget recommendation for the Coast Guard. Any reduction in 
Deepwater funding jeopardizes the Coast Guard's integrated 
recapitalization strategy by not providing adequate funding to 
recapitalize or modernize the Coast Guard's aging and obsolete 
cutters, aircraft, and command and control, information, and 
surveillance and reconnaissance systems while sustaining legacy 
assets in the interim. At a minimum, the recommended funding 
levels will delay delivery of new assets. If held to the House 
recommended funding levels, operational capacity will go away 
faster than it can be replaced, and this resource problem will 
persist. If held to the $500 million funding level, the Coast 
Guard cannot complete necessary legacy asset sustainment which 
is necessary to reverse the downward trend in readiness and 
availability of our assets.
    The Coast Guard appreciates your support over the years and 
we ask for your continued support as our funding is discussed. 
We are working our assets and our crews harder than ever, and 
the wear is beginning to show. The President addresses capacity 
and capability improvements for the Coast Guard in his budget 
request which includes maritime patrol hours for counterdrug 
operations, which I ask you to support. Deepwater, our plan for 
major asset recapitalization has never been more relevant, and 
I ask for your funding support for the President's request.
    Thank you, Mr. Chairman.
    [The prepared statement of Admiral Sirois follows:]

    [GRAPHIC] [TIFF OMITTED] T4892.012
    
    [GRAPHIC] [TIFF OMITTED] T4892.013
    
    [GRAPHIC] [TIFF OMITTED] T4892.014
    
    [GRAPHIC] [TIFF OMITTED] T4892.015
    
    Mr. McHenry. Thank you, Admiral.
    Admiral Hathaway.

            STATEMENT OF ADMIRAL JEFFREY J. HATHAWAY

    Admiral Hathaway. Thank you, Mr. Chairman, Mr. Cummings, 
good to see you both again. I am Rear Admiral Jeff Hathaway. I 
have the honor of presently serving as Director of JIATF-South, 
the Joint InterAgency Task Force South in Key West, FL. I am 
here representing U.S. Southern Command and, more importantly, 
the 450 men and women that comprise Joint Interagency Task 
Force South, which I will add, I truly have become a believer 
that it is the best of joint DOD interagency and international 
cooperation that I have seen and, quite frankly, a great 
example of good governance.
    Chairman Souder mentioned that in 1991 DOD was given the 
lead for detection and monitoring in the transit zone. I would 
submit I believe that was a very good decision on the part of 
the Congress to cause that to happen. What it did was it 
brought core competencies from DOD into the counterdrug game. 
They are just as germane today as they were then. JIATF-South's 
heartbeat is driven by three core competencies that are DOD 
core competencies.
    The first one is the ability to fuse vast amounts of all 
source intelligence. We have built the systems primarily on a 
DOD background, we have the analysts, most of them DOD but lots 
of them from our interagency partners, most of which are 
represented at the table with me. Most importantly, that 
backbone allows us to fuse, analyze, and push that intelligence 
out in a tactically actionable way so that it can be used.
    No. 2 is, again a core competency of DOD, to exert command 
and control across vast distances. Our joint operating area is 
42 million square miles. It is only DOD systems that have 
allowed us to fuse together DOD assets, U.S. interagency 
assets, and our international partners into one team and be 
able to talk with them real-time and to coordinate across those 
vast distances. Again, as germane today as it was many, many 
years ago.
    And finally, again a core competency of DOD, is deliberate 
planning. We brought deliberate planning to the counterdrug 
game. We are able to synchronize operations in a way that the 
Department of Defense has been able to do for years and years. 
Again, we make that work for us on a daily basis.
    We have put together in JIATF a standard operating 
procedure. Everyone leaves their own standard operating 
procedure at the door when they become part of the JIATF team. 
Everyone was part of building today's current operating 
procedure and it continues to renew itself on a daily basis. 
This weekend was a great example. We had intelligence from one 
of our allies, I cannot mention the country, we were able to 
use that information, fuse it with some of our technical 
reporting, and it cued us to a Sao Tomean vessel, a small West 
African country. Sao Tome finally refuted the claim of registry 
for that country.
    But most importantly, we were able to take a Dutch frigate 
working for JIATF at the time with a U.S. Coast Guard law 
enforcement detachment on board, move them into an intercept 
position, hand the case over to the Coast Guard, board the 
vessel, with the special intelligence we had, it allowed the 
Coast Guard to very quickly find the secret compartment on 
board, find 1.8 tons of drugs, seize the drugs, arrest the 
crew, and it all happened within our standard operating 
procedures.
    Everyone knew exactly what was going to happen across the 
interagency, across DOD, with our international partners. It 
happens every day. Unity of command, a common vision, and unity 
of effort is what we strive for in JIATF.
    Finally, I know this hearing is all about level of effort 
in the transit zone. I will be very honest with you, I look at 
this as a cup half full at this point. Last year, I will be 
very honest, we saw 331 go-fast cases, most of them in the 
Western Caribbean. Three years ago my predecessors could not 
have sat here and told you that we had the granularity of 
intelligence to know that we had that number of go-fast 
smuggling events. Mr. Cummings, you said each one of those 
carries about two tons. That is exactly right. The fact of the 
matter is, out of those 331, we only interdicted slightly less 
than 100. Out of those we interdicted, three out of four we 
were actually able to stop. Do we want to do better across this 
table? Absolutely. Do we have the resources today across the 
administration? I think we are working on them. So from a cup 
half full, we know where the enemy is, we know where we have to 
go to engage him, and all of us I know want to do that more 
robustly.
    Let me just say that our counterdrug ship is sound, it is 
well-built, it has the right mix of crew, they are well-trained 
and motivated, and they are making the best use of the wind 
that they have in their sails today. But we are very confident 
that we could make even more effective use of greater winds, if 
they come. Thank you very much.
    [The prepared statement of Admiral Hathaway follows:]

    [GRAPHIC] [TIFF OMITTED] T4892.016
    
    [GRAPHIC] [TIFF OMITTED] T4892.017
    
    [GRAPHIC] [TIFF OMITTED] T4892.018
    
    [GRAPHIC] [TIFF OMITTED] T4892.019
    
    [GRAPHIC] [TIFF OMITTED] T4892.020
    
    [GRAPHIC] [TIFF OMITTED] T4892.021
    
    [GRAPHIC] [TIFF OMITTED] T4892.022
    
    [GRAPHIC] [TIFF OMITTED] T4892.023
    
    Mr. McHenry. Thank you, Admiral Hathaway.
    Mr. Stallworth.

             STATEMENT OF CHARLES E. STALLWORTH II

    Mr. Stallworth. Good afternoon. Mr. Chairman, Ranking 
Member Cummings, and distinguished members of this 
subcommittee, it is my honor to appear before you today to 
discuss U.S. Customs and Border Protection interdiction efforts 
in the transit zone. My name is Charles Stallworth and I am the 
acting Assistant Commissioner for the CBP's Office of Air and 
Marine Operations. In the interest of time, I would like to 
summarize my prepared remarks which have been submitted for the 
record.
    CBP is the Nation's unified border agency and as such is 
responsible for interdicting all people and conveyances that 
seek illegal entry. Our priority mission is preventing 
terrorists or terrorist weapons from entering our country, and 
includes our efforts to close our borders to illegal activity 
such as the smuggling of people and drugs. We do this while 
simultaneously enhancing the legal movement of people and 
trade. Our strategies reflect the operational reality that for 
the purpose of the border security the threats are converged 
and have converged.
    AMO supports these homeland security and counterdrug 
efforts with more than 1,000 personnel who support and employ 
our fleet of advanced aircraft, marine vessels, and sensors. We 
tie this system of systems effort together at our Air and 
Marine Operations Center in Riverside, CA. Created by the 1994 
National Interdiction Command and Control Plan, the NICCP, AMOC 
is a home to the Department of Homeland Security's common 
operational picture for air.
    Our contribution in interdiction in the transit zone 
continues to increase. Since January 1, 2004, CBP is the single 
largest contributor of on-station flight hours in an effort 
that includes the U.S. Navy, U.S. Coast Guard, the U.S. Air 
Force, and our international allies. From a contribution of 200 
hours per month in recent years to a commitment of more than 
600 hours per month, averaging over 700 hours per month this 
year, CBP's fleet of dedicated P-3 aircraft continue to score 
impressive interdictions against a maritime threat, made 
possible because of the outstanding cuing and intelligence 
support that we have heard about here earlier, most of it 
contributed by our interagency partners.
    We support this effort with a capable but aging fleet of P-
3 aircraft that is increasingly costly and difficult to 
maintain. We are rapidly approaching a decision point in the 
lives of these aircraft. Specifically, to maintain this level 
of effort in the transit zone, we will either have to 
significantly overhaul these planes or replace them altogether. 
In the interim, we are trying to make them as effective as 
possible by equipping them with sensors that will help boost 
the detection in maritime surface targets at greater ranges.
    Throughout our 2003 departure from the U.S. Customs 
Service, our 2004 tenure as U.S. Immigration and Customs 
Enforcement, and our move in 2005 in integration with CBP, the 
men and women of CBP's AMO have continued to deliver 
interdiction results against the drug trade and other threats 
to our borders. On behalf of them and our Commissioner Robert 
C. Bonner, thank you for your support and interest in our 
mission.
    I would be pleased to answer your questions when the time 
comes.
    [The prepared statement of Mr. Stallworth follows:]

    [GRAPHIC] [TIFF OMITTED] T4892.024
    
    [GRAPHIC] [TIFF OMITTED] T4892.025
    
    [GRAPHIC] [TIFF OMITTED] T4892.026
    
    [GRAPHIC] [TIFF OMITTED] T4892.027
    
    Mr. McHenry. Thank you, Mr. Stallworth.
    Mr. Harrigan.

                STATEMENT OF THOMAS M. HARRIGAN

    Mr. Harrigan. Good afternoon, sir. Chairman McHenry, 
Ranking Member Cummings, on behalf of the Administrator of the 
DEA Karen Tandy, I wish to thank you for your continued support 
for the men and women of the Drug Enforcement Administration as 
well as the opportunity to testify today to discuss drug 
trafficking throughout the transit zones. As DEA's Chief of 
Enforcement Operations, I am acutely aware of the challenges we 
face in combating drug trafficking organizations throughout the 
region.
    DEA's primary function as an investigative law enforcement 
agency is to identify and dismantle the world's most 
significant drug trafficking organizations. DEA's role in 
interdiction efforts is crucial since the intelligence gained 
from these operations often provides information needed to 
unveil the depth and magnitude of a drug trafficking 
organization's abilities and intentions. Law enforcement, 
intelligence, and interdiction agencies all play an integral 
role in disrupting the most sophisticated drug trafficking 
operations.
    As you know, most of the major illegal drugs abused in the 
United States are produced in Latin America. While production 
levels have generally declined over the last few years, 
traffickers continue to use a variety of smuggling methods to 
move their product out of Latin America, including maritime and 
air conveyances. When focusing on those drugs destined for the 
United States, two general corridors stand out--Mexico/Central 
America and the Caribbean.
    Historically, Colombian drug traffickers have utilized the 
Mexico-Central American corridor as well as the Caribbean 
corridor as a transshipment route to smuggle cocaine and heroin 
into the United States. Cocaine is smuggled into Mexico via 
maritime, land, and air conveyances, and over the years 
Colombian traffickers have exploited the Caribbean corridor for 
their smuggling purposes as the region provides them with 
increased flexibility and anonymity because of its vast 
geographic territory, numerous law enforcement jurisdictions, 
and fragmented investigative resources.
    Through interagency collaboration, DEA has taken part in 
developing a multifaceted investigative strategy that is 
designed to combat the trafficking problem by employing a 
coordinated regional attack on the entire trafficking 
organization simultaneously, from the sources of supply in 
Colombia, to the transportation cells in the Caribbean 
corridor, to the distribution cells throughout the United 
States, and finally on to their financial operations. Perhaps 
no better operation exemplifies the level of the interagency 
cooperative effort evident in both corridors as the Panama 
Express. Panama Express represents a multi-agency Organized 
Crime Drug Enforcement Task Force [OCDETF], investigation that 
began in the mid-1990's with personnel from DEA, ICE, JIATF, 
FBI, IRS, and the U.S. Coast Guard. JIATF-South, in particular, 
utilizes the information shared to better direct air and naval 
assets toward the goal of interdicting vessels smuggling 
cocaine through the transit zones.
    The multi-agency El Paso Intelligence Center [EPIC], also 
participates in sharing information that increases the 
effectiveness of Panama Express. By passing real-time, 
actionable intelligence information on smuggling operations to 
JIATF-South, transit zone interdictions can be made more 
precise. As Assistant Administrator for Intelligence Anthony 
Placido testified to this committee on June 14, 2005, the 
cooperative efforts of EPIC, JTF-North, the U.S. Customs and 
Border Protection's Air and Maritime Operations Center, and 
JIATF-South contribute greatly to our interdiction 
effectiveness.
    In conclusion, drug trafficking organizations today have 
the capacity to overwhelm the defenses of individual nations. 
These traffickers have adopted a global approach to their 
operations, consequently amassing billions of dollars in 
illicit profits, weakening national economies and democratic 
institutions, spreading violence and destruction, and producing 
some of the most powerful and corrupting organizations in the 
world.
    The DEA recognizes that interagency cooperation and 
coordination is fundamental to increasing the efficiency of our 
operation in the transit zones. The DEA is committed to 
maintaining an effective relationship with its partners in 
domestic and international law enforcement, as well as its 
operational counterparts in other agencies. Having said this, 
we must and will continue to synchronize the resources and 
capabilities of operational enforcement agencies to 
collectively put forth the strongest effort to combat drug 
trafficking in the transit zones.
    Chairman McHenry, Ranking Member Cummings, I thank you once 
again for the opportunity to testify and look forward to 
answering any questions you may have. Thank you.
    [The prepared statement of Mr. Harrigan follows:]

    [GRAPHIC] [TIFF OMITTED] T4892.028
    
    [GRAPHIC] [TIFF OMITTED] T4892.029
    
    [GRAPHIC] [TIFF OMITTED] T4892.030
    
    [GRAPHIC] [TIFF OMITTED] T4892.031
    
    [GRAPHIC] [TIFF OMITTED] T4892.032
    
    [GRAPHIC] [TIFF OMITTED] T4892.033
    
    Mr. McHenry. I thank the panel for your opening statements. 
At this time, I would like to recognize Ranking Member Cummings 
for his series of questions.
    Mr. Cummings. Thank you very much, Mr. Chairman. First of 
all, I want to thank all of you for your efforts in what you do 
everyday to make our world a safer world.
    I want to go to you, Admiral Hathaway, and something that 
you said that I just found very interesting. When you were 
talking about the resources needed and the fast boats, you said 
we are working on it. I am just wondering, explain exactly the 
process. In other words, we know about a certain number of fast 
boats, we cannot catch up with them.
    Can you just elaborate a little bit on that, and then tell 
me what resources you would need to get to the level that you 
would like to. It sounds like there may be a level of 
frustration. I am trying to picture this fast boat going past 
me and I am not able to catch up with it. I am just wondering 
what is it that we need.
    Admiral Hathaway. The greater intelligence that we have 
today, and much of that comes from the Panama Express operation 
that has been described to you by some of my colleagues, gives 
us better knowledge on departure times, departure locations of 
drug movements. Many of those are interdicted by host nations, 
primarily Colombian forces, and many, many are not.
    We do not have precise data that allows us to track those 
vessels, these go-fast vessels that sometimes move at 30, 40 
knots depending on weather conditions. What we need is to put 
eyes on them and we have to have surface assets to get in place 
to be able to effect an interdiction.
    Not having perfect knowledge, you need some sort of 
maritime patrol aircraft to find the target, you need a surface 
asset and most ideally equipped with an armed helicopter to 
stop that asset so that it can be compelled to have law 
enforcement come on board and to find out if, in fact, they are 
committing an illegal act. Because of the great knowledge that 
we have, we know that there are many events that occur that we 
are not able to physically get either the aircraft or surface 
assets on scene. We have a terrific track record of being able 
to effect an end-game, get what we call in JIATF a disruption, 
either seize the drugs or cause the drugs to be jettisoned, 
they never get to a world market. That is great news. That is 
the cup half full. But we also know that the level of 
information and detail that we have today would allow us to do 
better.
    What would it take, quite frankly, today is a greater level 
of aircraft support, maritime patrol aircraft, as we call it, 
persistent coverage in those areas. What we have to do today is 
I have to go at risk. In order to go after intelligence in one 
area, I have to vacate another area of the ocean, quite 
frankly, most often. We go where we have the best intelligence 
and I can make the best use of the assets that I have. I think 
working collaboratively we have come up with estimates of what 
it would take to be able to interdict certain percentages of 
drugs. We do not have a national goal in terms of what we 
should be doing in the transit zone; we try to do the best that 
we can with what we have. But we also have some very good 
estimates of what it would take to perform even better. What I 
do know is we can make much greater and effective use of the 
assets that we have assigned to us today than we could have 5 
or 6 years ago.
    Mr. Cummings. How many would you estimate that we are 
missing, the go-fast boats?
    Admiral Hathaway. Well, sir, our estimates are, as I said 
in my opening statement, I used as an example the interagency 
documented 331 go-fast events in 2004 through our primary 
operating area. Most of those were transiting in the Western 
Caribbean but some were in the Eastern Pacific, some were in 
the Eastern Caribbean. Out of those, we actually were able to 
put eyes on about 93 of those, and three-quarters of those we 
were actually able to get an interdiction, which meant people 
were arrested, drugs were disrupted and were taken out of the 
system.
    Mr. Cummings. So we know pretty much that drugs are on 
those boats?
    Admiral Hathaway. The intelligence we have is, yes, they 
were drug movements.
    Mr. Cummings. Just one other question. Do you think that 
the administration's budget request is sufficient for you to 
accomplish what you want to accomplish? I wish the people in my 
neighborhood could understand the difficulty that you all have. 
Because a common question that I am asked in my neighborhood, 
which is only about an hour away from here in the inner-city of 
Baltimore, is that we don't have any boats, no planes. People 
have this feeling, because they do not know, they think that 
this is a very easy task to keep the drugs from coming in. I 
try to explain it to them as best I can that there are a lot of 
folks who are trying to get these drugs in. So what you are 
telling me then is that we have a whole slew of fast boats 
coming through at one time. That is a major, major problem; am 
I right? You just said you had to take resources from one place 
and take them over to the other. So I imagine that if they had 
some kind of coordinated effort, there would be a real big 
problem.
    Admiral Hathaway. Well the effort that we have in 
coordinating what we have----
    Mr. Cummings. I am talking about if these drug smugglers 
had a coordinated effort.
    Admiral Hathaway. What we do know about the transportation 
industry is there is a vague amount of coordination amongst a 
variety of those who transport drugs through our primary joint 
operating area. The fact of the matter, if you have 331 go-fast 
events, that is slightly less than one per day moving through 
our joint operating area. Trying to figure out whether it is 
leaving from Venezuela, the North coast of Colombia, the west 
coast of Colombia, or out of Panama is the trick. The 
intelligence we have allows us to do a much better job at that.
    It is a vast, vast area and obviously we could do a better 
job. My job is to make the most effective operation out of what 
we have. And we are very proud of the effectiveness that we do 
have given the level of assets that we have. The 
administration's budget takes us another step down the road, 
quite frankly. Cooperation with our international partners, our 
traditional allies, we know that some of these drugs are coming 
over to Europe, has never been better. I think they are going 
to step up to the plate in even greater numbers, although they 
suffer from some of the same problems that U.S. military does 
in that the high usage rate of their assets is causing them in 
many cases to have to retire them earlier than they hoped for. 
That has been the case with the Navy P-3 aircraft, for example, 
which was a backbone for a long time for JIATF-South maritime 
patrol ops.
    As it has been pointed out, the Coast Guard and CBP have 
been able to step up to the plate. DOD has been able to provide 
E-3s, our most sophisticated AWACS aircraft that I will be able 
to use in air bridge denial operations over Colombia and free 
up Customs and Border Protection P-3 domes to move into the 
maritime world. So we will be able to plus-up a very capable 
asset in the maritime world while the Air Force takes over the 
air bridge denial role for us, which is very good.
    Mr. Cummings. Thank you.
    Mr. McHenry. Thank you, Mr. Cummings. If I may take my time 
now. Admiral Hathaway, I want to continue with Mr. Cummings 
line of thought here. You said 331 known go-fast events, that 
is known. Those are actually hard numbers that we are aware of 
of these events. Of those, 238 were not detected. Now can you 
describe the difference between known and not detected? We know 
that it is leaving Venezuela, we cannot detect that it has left 
Venezuela. Can you explain the measurement tool there?
    Admiral Hathaway. The interagency group that documented 
those 331 cases have a level of reliability that they adhere to 
that a smuggling event occurred, each one of those 331, it is 
more than single source reporting. In many cases, we may not 
have even known the event was occurring until after the drugs 
arrived but sources told us that, in fact, the drugs arrived. 
So that is where we get the 331 number. It is intelligence.
    Not detected means that we never saw those events as they 
occurred. We never had laid eyes on them in a detection and 
monitoring mode. I never had the opportunity to be able to----
    Mr. McHenry. So you know they arrived, for instance, you 
know they arrived or you know they departed, the two events you 
know.
    Admiral Hathaway. Correct.
    Mr. McHenry. Maybe I am not directing this in the right 
way, but Mr. Cummings had this line of questioning to you and I 
thought it was interesting. Maybe Mr. Stallworth or if anyone 
else would like to chime in. So you know that it left, or you 
know that it arrived, and perhaps some you knew both that it 
left and that it arrived, and others you just knew one side or 
the other. All right. Now you said 93 detected. That means you 
saw it move; which is it left, it is in transit, it arrives. So 
93 you saw in transit, detected. Of those 93, you caught 73. 
Pretty good when you actually see it move. OK.
    First, let us commend you on actually having good 
intelligence. If it is 331, there had to be many more out 
there. Now that is another question. But it seems to me that if 
you are detecting 331 events yet you are only seeing in action 
93 move, we have a real issue of actually seeing it move. I may 
be new around here, but it seems like a very basic concept that 
something is missing. Is it boats, is it airplanes, is it 
technology; what is the problem?
    Mr. Utley. May I jump in on that because I own the data 
base. It is a CCDB, consolidated counterdrug data base. The 
point that Admiral Hathaway was making is that we have a pretty 
good idea that this event took place because we knew it left 
and we knew it arrived, but we might not know, I am going to 
reiterate what Admiral Hathaway said, that the event took place 
until after it took place. So there is another dimension and it 
is a time dimension in there, that had he known he may have 
been able to do something.
    Mr. McHenry. This sounds like back to the future, time 
travel.
    Mr. Utley. Well, not really. It is actually just a matter 
of a lot of times you do not know about an event until after it 
has taken place. I guess that is what I am trying to say.
    Mr. McHenry. What I am asking for is this is an opportunity 
to say what are we missing. Admiral Sirois, I certainly 
appreciate your stepping forward and saying the Coast Guard may 
need some better equipment to compete with the go-fast. I 
certainly appreciate you stepping forward on that. Mr. 
Stallworth, you mentioned aircraft, we have to make a decision 
on are we going to keep repairing these aircraft or are we 
going to move forward with technology. I appreciate that 
instead of like being in la la land and not actually taking on 
the meat of the issue, the center part of this is the 
interdiction part, the actual catching those people in action. 
I certainly appreciate the time issue. But it seems to me that 
if know it left and you know it arrived, where is it in the 
middle? What can we do to catch the middle? Am I making any 
sense to you all? Everybody seems quiet.
    Mr. Stallworth. Let me help you out a little bit here with 
the dynamics so you will understand a little bit better that it 
is not just a straight line, two points and it is a straight 
line between those. We have about 6 million square miles 
between us and the source. So we may know something is leaving 
Cartagena but you do not know necessarily what its destination 
is. So there is a little bit of time that you can use Colombian 
forces in their territorial waters to try and intercept that, 
find something that matches the description that you have. You 
may not have a direction, you may not know where it is going.
    Let me give you a little bit of the life of a logistics 
move of drug trafficking. We get intelligence from people that 
may know about the time that it is leaving, the method that it 
is going, etc. Sometimes you do not know when but you know what 
the name is. But sometime between its departure and its 
arrival, that is where you have to do a detection, monitor it, 
find out if it is the right one, sort it out, and then put 
something on the surface down there. We do not have airplanes 
with grappling hooks to reach down there and just pull a fast 
boat out of the water, so we have to get someone down there. So 
sometimes we will observe something but none of the good guys 
are in a position to catch it or intercept it. So now you give 
information out to those people that may be at the port that it 
is likely going to, etc. And at the same time, Admiral Hathaway 
has international forces and our own domestic forces that are 
out there positioned as best they can be geographically, none 
of them sitting still, some do sit still, but most with an area 
of operations to try and cutoff a corridor.
    So even if you knew, even with the 331, if you had time to 
do it, you are still going to have to sort through those. The 
numbers that he gave you, out of the 93 there were 73 that 
actually were real, it is just like being a policeman and there 
are speeders out there, here are 93 of them, how many are 
actually speeding. Well you can do that with an indicator. For 
us, you have to stop them, get inside, and then try and find 
it. These people are in business and their business is to get 
their product to market. It is very difficult for us, and that 
is why the cooperation is necessary throughout the interagency, 
both from the intelligence all the way through the 
investigation once you do catch someone, trying to feed the 
intelligence so that we can go back into the infrastructure and 
the organizations and the financial underpinnings of the drug 
trafficking.
    Mr. McHenry. OK. Admiral Sirois.
    Admiral Sirois. Mr. Chairman, I know you are looking for a 
solution, and I can give you a short-term and a long-term. The 
25 percent of the go-fast boats, and there is more than just 
go-fast, there are sailboats and merchant ships, fishing boats, 
but the 25 percent of the go-fast boats, if we had armed 
helicopters on every ship we could catch that 25 percent of the 
boats that we see go by. We have a plan that is in the budget 
to arm all Coast Guard helicopters so every ship will be 
deploying with an armed Coast Guard helicopter. So that will 
take care of that 25 percent. We hope to complete that over the 
next 3 to 4 years.
    Also in the Deepwater plan, many of our legacy assets are 
being upgraded--better sensors, better communications suites, 
our new Deepwater cutters, for many, it is 2, 3 years before 
they come off the waves, but we can leverage better 
capabilities on our old cutters that will provide Admiral 
Hathaway with better assets in the fight down in the transit 
zone.
    We have a large initiative, supported by the President, for 
maritime domain awareness, which is knowing what is going on 
out there, and it is an integrated network system of sensors, 
satellites, communications, unmanned aerial vehicles, all these 
things that will be networked in the system. When they come to 
full production that is when I think we are really going to 
show some successes in the transit zone.
    Mr. Harrigan. Sir, if I may followup also just to sort of 
close the loop I believe on this. To give you a little 
background, we keep alluding to Operation Panama Express and 
that is based upon we have a cadre of sources of informants 
throughout the region, throughout the transit and the source 
zones. We obtain information from these sources of information. 
It may not be specific but we go with it. Again, just solely 
based on any information they may have, they feed back to 
Panama Express, we then feed it to JIATF, and obviously JIATF 
does the best they can with the available resources they have.
    Mr. McHenry. I have gone significantly over my time. I 
guess that is the luxury of having the gavel at the moment. But 
I certainly appreciate you all going through this range of 
thought here. The idea of this hearing is to actually get ideas 
to help you do your jobs better. And I certainly appreciate 
your willingness to come forward and explain this process so we 
can look at ideas to actually do what we are supposed to be 
doing, and that is to give you all the resources to achieve 
those goals. That is why we have these hearings on a regular 
occasion is to keep driving that process forward.
    It seems to me that we need to make sure we have the 
resources and the technology in place so that we can actually 
do the job on the ground, in the water, and make this process 
easier for you. And if it is a question of resources, we would 
like to hear that. If it is a question of policy, we need to 
hear that too. That is the purpose of this committee.
    Furthermore, we actually had a hearing back in January I 
believe, Admiral Hathaway, and I think Chairman Souder had some 
questions that he submitted and is still looking forward to 
receiving your response from that. We are now about 5 months or 
6 months after that hearing, so we would like to hear from you 
on that.
    At this time I will yield to Mr. Cummings for a second 
round of questions, and yield the Chair to my good friend, the 
gentlelady from Florida, Ms. Brown-Waite.
    Mr. Cummings. Gentlemen, I want to reiterate that we do 
appreciate what you do. I want to just go on that subject of 
appreciation. Admiral Sirois, you just talked about bringing 
some new equipment to certain Coast Guard vessels; is that what 
you were saying?
    Admiral Sirois. Yes.
    Mr. Cummings. What did you say? Say that again, please.
    Admiral Sirois. Our legacy fleet, our older cutters, we are 
putting new sensors on them, communications suites so that they 
are more effective in the job they are doing.
    Mr. Cummings. OK. And when we interdict, how dangerous is 
it? What do we usually find with regard to weapons?
    Admiral Sirois. Fortunately, very few weapons. We do find 
them from time to time. Most of the time we find that the crews 
will dispose of the weapons before our boarding team goes 
aboard. It is pretty imposing to have a large Navy ship or 
Coast Guard ship in close proximity to a 50 foot boat and that 
presence there dissuades them.
    Mr. Cummings. So going back to what you said, Mr. 
Stallworth, the whole thing of timing. I take it that the 
timing is very significant in that if you get the information--
in other words, I am not trying to figure out who your 
informants are, but I imagine sometimes they can have some 
difficulty getting the word to you all in a timely fashion. Is 
that a reasonable assumption?
    Mr. Stallworth. Sometimes. And I defer to the DEA on that.
    Mr. Harrigan. Absolutely. Yes. That is an accurate 
assessment.
    Mr. Cummings. And that can be a real problem.
    Mr. Harrigan. Absolutely.
    Mr. Cummings. So it could be some guy down at the docks 
somewhere and he sees something happening and then he has to go 
through 50 million changes, he has also got to protect his own 
safety and make sure he is safe and does not want to give away 
the fact that he is a source or he will not be a source very 
long. Is that reasonable?
    Mr. Harrigan. Yes, sir. It sounds like you could give the 
Panama Express briefing, to be quite honest. You hit the nail 
right on the head.
    Mr. Cummings. So then you get the word. But the interesting 
thing is it sounds like most of the time this information is 
pretty reliable. Is that safe to say? In other words, reliable 
that there are drugs on the vessels.
    Mr. Harrigan. Suffice it to say that the information that 
we receive is typically--again the cadre of sources that we 
have out there are fairly reliable, we have worked with them in 
the past, and they know exactly what to look for: the types of 
ship, the types of different maneuvers that they may employ, 
certain dock hands, that type of thing, sir. So this cadre of 
sources that we have are pretty well-versed in watching out for 
specific things.
    Mr. Cummings. OK. So I guess what I am trying to figure out 
is that let us say we see the go-fast boats and one of you all 
implied there are instances where we get there but maybe we do 
not have the necessary equipment at that moment. Was it you, 
Mr. Stallworth?
    Mr. Stallworth. Yes. There are a number of dynamics as 
opposed to doing operations on land and a policeman pulling you 
over to the side of the road. It is called the end-game. For 
us, we can detect a suspect vessel, but if we do not have 
anyone on the surface in a position to actually stop them, go 
inside the vessel, and then inspect to see if there is a 
concealed compartment or if there are drugs there, we do not 
know. Sometimes we will se an open boat, a fast boat, but there 
is no one in the region on the surface that is going to be able 
to take them down. We just have to document the fact that it is 
there and where it is and give information and a heads-up to 
the local authorities of the areas that it may go to.
    Mr. Cummings. Would any kind of aerial operation help with 
that, like helicopters or----
    Mr. Stallworth. Sure, if you had land-based helicopters 
that were on the islands, for instance, in the Caribbean. But 
you have a lot of water out there and the range of a helicopter 
and even the vessels that you put helicopters on have to be so 
close to that target vessel before the helicopter can take off 
because it has to have the ability to go out there, stop, if 
the vessel stops the helicopter has to stay there and monitor 
it until the ship or other surface assets get there. So there 
is a lot more to being successful with the end-game than just 
you see them, you know they have drugs, and now you got them. 
You actually have to catch them.
    Mr. Cummings. Were you going to say something, Admiral 
Sirois?
    Admiral Sirois. Just that the area that we operate in, the 
transit zone, it is like finding a needle in a haystack.
    Mr. Cummings. All right. Thank you all.
    Ms. Brown-Waite [presiding]. The gentleman yields back his 
time.
    I have a question for Admiral Hathaway. I understand that 
the chairman and staff came down to visit you and see the 
operation and posed some followup questions. Those questions 
were submitted--the visit was January 13th, and the questions 
were submitted January 28th.
    Chairman Souder is much more patient than I would be. The 
questions were submitted in writing and then told that the 
questions would only be answered if they were under the 
chairman's signature. The bureaucracy in getting a Member of 
Congress' questions answered seems to me an offense. I find it 
offensive, I am sure the chairman found it offensive, and I 
would like to know why it takes 6 months to get some answers to 
some questions that a Member of Congress who Chairs this 
subcommittee asks.
    Admiral Hathaway. Madam Chairman, I certainly apologize for 
the tardiness of the answers to those questions. I have seen 
the questions, they were worked on diligently in JIATF, they 
were very good questions, and I will take back to the 
administration the subcommittee's dismay that they have not 
received the appropriate answers.
    Ms. Brown-Waite. Well, taking that back is real good, but 
the question is how many more 6 month periods are we going to 
have? I understand that the answers were actually submitted and 
then taken back this past Monday. Is that accurate?
    Admiral Hathaway. I am not sure exactly where the answers 
to the questions are within the administration in terms of the 
clearing process.
    Ms. Brown-Waite. Sir, I think the questions were directed 
to you.
    Admiral Hathaway. The original questions were directed to 
myself as the Director of Joint Interagency Task Force South.
    Ms. Brown-Waite. So therefore you are the administration, 
sir.
    Admiral Hathaway. Yes, ma'am. And as you know, at my level, 
when those questions are answered, they are ultimately 
transmitted to Congress but via my chain of command. And so I 
will find out where they are and certainly convey the dismay of 
the subcommittee. We will try to expedite getting those to you 
just as quickly as possible.
    Ms. Brown-Waite. I think perhaps even more interesting is 
why they were submitted and then withdrawn. I think an 
explanation needs to be given for that also. I believe in 
deadlines, sir.
    Admiral Hathaway. As do I, Madam Chairman.
    Ms. Brown-Waite. I do not think a 6-month delay is 
acceptable. So how about within 3 weeks, because you already 
will have had the questions for almost 6 months. So how about 2 
weeks? Could we have a commitment on that? I am sure those 
bureaucratic wheels can move a whole lot faster.
    Admiral Hathaway. I will certainly take that back and try 
to expedite getting the answers to you. And if this 
subcommittee desires those within 2 weeks, I will make sure 
that everyone is aware of that. I can promise you that.
    Ms. Brown-Waite. Thank you, sir. I have a couple of 
questions for the representative from DEA. First, thank you all 
for being here. I apologize I was not here earlier. It is very 
frustrating when you serve on the Veterans Committee and they 
simultaneously are holding a hearing and you run from hearing 
to hearing.
    I apologize, I did read part of the testimony though 
earlier in the day, but I apologize for not being here earlier. 
I want you to know that any other Members who are not here are 
facing the exact same situation of committee meetings being 
held simultaneously and/or constituents, because this is the 
time to visit Washington, DC, constituents being in their 
office. So I apologize for not being here sooner.
    Mr. Harrigan, I just have a question for you. Despite the 
good drug movement intelligence in the transit zone, we lack 
apparently similar knowledge in Mexico and Central America. So 
what agency has had the lead in developing logistic support 
bases that are located near the transit zones? And second, has 
DEA considered renewing operations in Guatemala?
    Mr. Harrigan. It is probably very good timing, ma'am. The 
Chief of Operations Mike Braun, who I am sitting here in place 
of, is actually in Guatemala as we speak meeting with 
Ambassador Hamilton and the president of Guatemala over that 
issue. So hopefully we will have our bases covered down in 
Guatemala.
    As far as the initial question, ma'am, you are correct. The 
problem when we see these go-fast boats and fishing vessels 
leave from the source countries, Colombia, Bolivia, Peru, once 
they get into Mexico/Central America, to be quite honest with 
you, we are not quite sure what happens. It is literally once 
it goes into Mexico they break these loads down to considerably 
smaller loads and it is almost like an army of ants coming 
across the Southwest border. I believe CBP puts estimates of 
seizures average about 20 kilos per seizure along the Southwest 
border.
    So we are in the process of developing, along with the 
other gentlemen here on the panel, DEA has a drug flow 
prevention strategy that we are turning into a plan. We are 
looking at targeting the vulnerabilities of these drug 
organizations and certain choke points where we will be able to 
identify them before they get to Mexico and Central America. It 
is certainly an issue.
    We have several offices in Mexico, ma'am, our main office 
in Mexico City, and we are doing what we can with the resources 
we have down there. We have a good relationship with the 
Mexican police, with some of the vetted units, and we are doing 
the best we can to try and identify those areas where these 
huge loads are coming into both Mexico and Central America.
    Ms. Brown-Waite. Let me ask you two other questions. First 
of all, were you with Customs before it was taken over by 
Homeland Security?
    Mr. Harrigan. No, ma'am. No. DEA, Department of Justice, 
yes.
    Ms. Brown-Waite. OK. We have heard about the tremendous 
success of the Panama Express intelligence cuing. Our reliance 
on this kind of intelligence sources should not be our only 
avenues of information on the drug trade. What other 
exploitable sources on this kind of information do you have in 
the transit zone operations area?
    Mr. Harrigan. Right now, ma'am, we rely almost exclusively 
on human intelligence. That is the bread and butter, to be 
quite honest with you. We have some great assets out there, 
whether they be technical in nature, but again, as Admiral 
Hathaway and Admiral Sirois alluded to earlier, we may have 
particular information they may be out in a particular zone, 
but it's like finding a needle in a haystack.
    So without human intelligence, it is an uphill battle. So 
it is with that human intelligence that we can perhaps sort of 
close the area a bit more for the JIATF and DOD assets to 
interdict those ships before they get to Mexico and Central 
America.
    Ms. Brown-Waite. So you are really relying a lot on the 
human intelligence?
    Mr. Harrigan. Absolutely.
    Ms. Brown-Waite. On a scale of 1 to 10, how reliable is the 
information that you get?
    Mr. Harrigan. It depends, obviously, on who it is coming 
from. But the success of Panama Express again is based on human 
intelligence and our sources in the area. So for the most part, 
if we get information, if it is gleaned through the Interagency 
folks, we take a hard look at it, as does every other agency 
sitting at this table, and we have a pretty good idea if there 
is a certain movement that is going to occur.
    Ms. Brown-Waite. One other question, and that is, does the 
DEA feel that the Joint Interagency Task Force South has 
optimized their airborne and maritime patrol efforts?
    Mr. Harrigan. I would have to defer, ma'am, to Admiral 
Hathaway. But we have an outstanding relationship. We have 
agents and intelligence analysts as well as support personnel 
assigned to JIATF-South. They have every request that has come 
from DEA, any tasking, it has always been acted upon. Other 
than that, I would really have no comment to that particular 
question.
    Ms. Brown-Waite. So you are not at liberty to say whether 
you believe that they have optimized the airborne and maritime 
patrol?
    Mr. Harrigan. I believe they have. I believe they have. 
From the information that we pass along to them, absolutely.
    Ms. Brown-Waite. OK. Is it true that about 90 percent of 
all drugs come into the U.S. through the Mexican border?
    Mr. Harrigan. Those are the estimates, ma'am. Right now, 
the IACM, Interagency Assessment of Cocaine Movement, put the 
figures in 2003 at approximately 77 percent of the cocaine 
coming into the U.S. transited Mexico/Central America, and they 
had the remaining 23 percent going through the Caribbean. In 
2004 there was tremendous movement, where estimates put it at 
92 percent of the cocaine coming from South America would 
transit the Mexico/Central America corridor, while 8 percent 
would transit the Caribbean. OK. Now again, these are estimates 
that this IACM put together.
    Ms. Brown-Waite. When I first moved to Florida, I moved to 
a coastal area and kind of the local chatter was that there was 
a lot of drug smuggling going on through the fishing boats, 
small fishing boats. Tell me, has that changed? Has it gotten 
better? Has it gotten worse? This is along the west coast of 
Florida.
    Mr. Harrigan. I will answer in part, ma'am, and then I will 
defer to perhaps Admiral Hathaway. Again, we have seen a 
decline over the last year or so of shipments going through the 
Caribbean. Again, they are simply estimates, nothing more, 
nothing less. We do see the vast majority of the drugs that are 
smuggled into the United States obviously come via maritime 
vessels, whether it be go-fast, whether it be containerized 
vessels, whether it be small fishing vessels. So based upon the 
IACM, we have seen a decline in the Caribbean.
    Ms. Brown-Waite. Thank you. Anybody else care to respond to 
that? Admiral Hathaway. Mr. Stallworth.
    Mr. Stallworth. Yes, ma'am. To answer your question 
specifically about the west coast of Florida, it is difficult 
to say specifically. What I can say is regionally in South 
Florida, especially with the post-September 11th Department of 
Homeland Security's efforts down there in south Florida, where 
the Coast Guard, Air and Marine Operations, and the Border 
Patrol essentially produce one flying schedule so we deconflict 
all of our assets and we utilize them in probably the most 
effective and efficient way possible with the assets that we 
have, and with some of the operations down there, which 
included taking back the Miami River which was a Joint 
Interagency, investigative, etc., State and local, and Federal.
    That operation has been I think very successful, and what 
happens is it has a tendency to impact the whole region. So 
when law enforcement and the Department got our act together 
down there and started acting in a cooperative manner, what we 
did has really had an impact on the total of south Florida, 
both maritime and air.
    So I think the impact has been there. The focus on the 
Miami River project, and the focus in the other regions down 
there, the threat of mass migration from Cuba and other areas, 
has resulted in team work that has resulted in a much safer 
environment down there for south Florida. I think what you are 
seeing is just that.
    Ms. Brown-Waite. Thank you. Anyone else wish to comment? 
Yes?
    Admiral Sirois. The area along the coast we call the 
arrival zone, and that is the responsibility of CBP, Coast 
Guard, and many other State and local agencies. You mentioned 
the fishing fleet, certainly fishing fleet is suspect. I would 
have to ask my local folks in Florida what information they 
have, but any conveyance, and of course there are hundreds of 
thousands if not millions of boats in Florida, are 
opportunities.
    The problem off the coast of Florida or any coastal area is 
those small boats carry small amounts of drugs. That is why it 
is most important that what JIATF-South does is get the large 
loads. As difficult as it is to get the large loads, it is much 
easier to do that than get the small loads in close to home.
    Ms. Brown-Waite. Thank you. Mr. Cummings, I believe you 
have some questions?
    Mr. Cummings. I will be very brief, Madam Chairlady. I just 
was wondering, to you Admiral Hathaway, is there a diversion of 
assets when the code levels go up? In other words, are we 
seeing a movement with regard to trying to deal with other 
priorities, particularly after September 11th and what have 
you? And if there are, does that call for a movement of your 
forces? And how does that affect what you do? Do you follow me? 
Maybe somebody else can answer that too.
    Admiral Hathaway. Yes, sir. I will provide a comment and 
then I would turn to both my Coast Guard and my Customs and 
Border Protection colleagues. In the aftermath of the September 
11th attacks, there is no doubt that at JIATF-South both Coast 
Guard and what is now Customs and Border Protection assets were 
pulled back in fairly large numbers. Both of those 
organizations have matured greatly since that time.
    As security levels go up in the United States, our 
assessment today as today's JIATF-South Commander, is that both 
the Coast Guard and Customs and Border Protection are able to 
handle both missions almost simultaneously. I no longer see a 
wholesale movement of assets from those two Interagency 
partners away from JIATF-South. We are able to maintain our 
level of operations while both these organizations flex in 
their homeland security duties. That is my assessment from the 
JIATF-South perspective. But I will ask both of them for 
theirs.
    Admiral Sirois. After September 11th the Coast Guard did 
draw back many of its major cutters in close to our ports and 
shores. Since that time, with the administration's budget and 
the support of Congress, we have added hundreds of new boats 
and patrol boats to our inventory. Those boats are doing things 
along our coastal ports that the major cutters were doing after 
September 11th. So now if the threat level is increased, we are 
pretty much able, as Admiral Hathaway mentioned, to do that 
mission without calling cutters back from his mission.
    However, having said that, there are other things that we 
do that could cause us to pull back our cutters--mass migration 
from Cuba, mass migration from Haiti. All our cutters are 
multi-mission, so there are more things than the elevated 
Homeland Security threat alert level that could cause a 
disruption in the allocation of assets.
    Mr. Cummings. Anyone else? Mr. Stallworth.
    Mr. Stallworth. Yes, sir. From the perspective of CBP, our 
counterterrorism mission is just as important as our 
counternarcotics, you almost cannot separate them. The 
Commissioner of Customs has a defense in depth strategy that 
includes the transit zone. So we would look at the facts and 
what the issue is because we know that the threat vector can 
come from the South just like it can from the North. So the 
decision is based on the threat and the situation as it is. 
There would not be just an immediate withdrawal of assets.
    Mr. Cummings. To Admiral Hathaway, I was just sitting here 
thinking about all you have been through today. I would imagine 
that if I were trying to put together one of those Southwest 
Airlines commercials, this would be the ideal time for you--you 
just want to get away. [Laughter.]
    But I wanted to say, I hope you can understand the urgency. 
Believe me, I am not going to pile on; believe me. I understand 
Chairman Souder's concern about getting the information. I am 
assuming, based upon what you have said, that if it were up to 
you, and you do not have to answer this because I know you have 
a chain of command and all that kind of thing, that I guess we 
would have these answers.
    But I am just asking you, as the Chairlady has said, and I 
agree with her, that we only have a limited amount of time to 
operate in this Congress and we do have a sense of urgency. 
Sometimes the public may not believe that, but we do. We have a 
limited amount of time to get some things done.
    So I would hope that you would do the best you can. It is 
simply not good enough to say you will try. We kind of need 
answers. And if there are problems, you need to let us know. We 
are human beings and we understand problems.
    So I just could not leave this room without saying that to 
you because I want you to have a decent evening, and I really 
mean that. I have sat on the general committee for now 9\1/2\ 
years and I have seen people come before this committee and 
leave just simply devastated. I do not want you to leave 
feeling that way, and I am saying that very sincerely. You all 
do so much for us and you affect all of our neighborhoods and I 
know you do the best you can with what you have.
    I know that when you are a military person there are 
certain things that you just do not say because there are 
chains of command and all that kind of thing. But I hope you 
will give it everything you have. I think the Chairlady asked 
for it in 2 weeks, if you could do that for us, please do that. 
And if for any reason that is in any way impossible, and I am 
sure it is not impossible, but if it is, please let us know. I 
hope that my statement helps you get through the evening. We 
thank you for your service, we really do. Thank you.
    Ms. Brown-Waite. And I thank Mr. Cummings for that 
question. One of the things that he said is I think he said he 
wants you to do the best you can with what you have. The reason 
why the chairman wanted those questions answered is to see what 
the shortfalls are, what additional equipment you need to 
better do your job to help interdict the drug trafficking to 
make our streets safer and our children safer. I do not think 
that there was any hidden agenda. It was not going to be a 
gotcha. It was how can we help you get better equipment, more 
equipment, whatever you need.
    Sometimes in any administration their priorities are not 
always the priorities of the Members of Congress. Like Mr. 
Cummings and the other members of this committee, I go home 
every weekend, I see the broken-hearted parents whose kids are 
hooked on drugs. I have taught in college the caseworkers who 
work with those who are addicted to drugs. I know the 
heartache. I know the broken families.
    So the chairman's intentions were to help you. As you know, 
the appropriations process is speeding along much quicker than 
ever before, and that was his goal, to help you get what you 
need, to make sure that what you got is a lot better to do your 
job better.
    Before we end the meeting, I would like to hear from 
everybody here on the panel, and I want to thank you for being 
here today. Do any of the agencies represented here today 
support the idea of a maritime oiler to refuel interdiction 
assets in the Eastern Pacific? How about if we start down here 
with Mr. Utley.
    Mr. Utley. I think it would be an excellent idea. It is 
having to do with the art of the impossible. Right now, the 
Navy does not have a spare oiler to donate to the Eastern 
Pacific, unfortunately, and it would be cost-prohibitive, it is 
somewhere around $25 million, to bring one out of mothballs.
    I will let some of my colleagues obviously talk about this, 
they have more granularity than I do. Approach other countries 
in the region, it is almost like a bridge too far away, with 
the Colombian ones in pretty bad shape, the Peruvian is in 
pretty bad shape, Chile is too far away. So, oh, yes, that 
would be really great. But it is the getting there that is very 
difficult.
    Ms. Brown-Waite. Thank you. Admiral Sirois.
    Admiral Sirois. Definitely. The number of days lost to 
cutters and Navy ships transiting back and forth to get fuel is 
troubling. I think last year one of our commanders estimated 
that in the Pacific we lost 100 patrol days because the ships 
were transiting back and forth.
    Ms. Brown-Waite. Thank you.
    Admiral Hathaway. In U.S. Southern Command, we have been 
working with our partner nations, as Mr. Utley noted, Peru, 
Columbia. We have been aggressively pursuing options other than 
U.S. assets.
    The frustration to me I can tell you, and this is the 
granularity of information we have today, that an on-scene day 
for one of our ships in the Eastern Pacific, whether it is 
Coast Guard, whether it is U.S. Navy, is worth about 100 
kilograms of cocaine seized. When we lose that ship off-
station, that is an opportunity lost. As Admiral Sirois simply 
said, by some estimates we lost about 100 ship days last year 
because we had to send cutters and U.S. Navy ships to shoreside 
refueling.
    Ms. Brown-Waite. Thank you. Mr. Stallworth.
    Mr. Stallworth. Yes, ma'am. From the air and Marine 
operations perspective, we are the guys who go out there and 
detect them. We would like for somebody to be on the surface to 
do the end-game so that the time that we spend out there flying 
comes to fruition and we protect our neighborhoods. So I am in 
support of that.
    Ms. Brown-Waite. Thank you. Mr. Harrigan.
    Mr. Harrigan. Well, ma'am, that is a bit out of the area of 
DEA's expertise. But for what it is worth, I fully concur with 
my panelists. [Laughter.]
    Ms. Brown-Waite. You know, I am from New York and it is so 
good to hear a New York accent.
    Mr. Harrigan. How did you guess?
    Ms. Brown-Waite. Because I am from New York.
    I want to thank each and every one of you for being here. 
We appreciate your testimony and certainly look forward to 
having a copy of the response to the chairman. Like you, we are 
from the Government; we are here to help, we really are. I want 
to thank you all for being here.
    This meeting is adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4892.034

[GRAPHIC] [TIFF OMITTED] T4892.035

[GRAPHIC] [TIFF OMITTED] T4892.036

[GRAPHIC] [TIFF OMITTED] T4892.037

[GRAPHIC] [TIFF OMITTED] T4892.038

[GRAPHIC] [TIFF OMITTED] T4892.039

[GRAPHIC] [TIFF OMITTED] T4892.040

[GRAPHIC] [TIFF OMITTED] T4892.041

[GRAPHIC] [TIFF OMITTED] T4892.042

[GRAPHIC] [TIFF OMITTED] T4892.043

[GRAPHIC] [TIFF OMITTED] T4892.044

[GRAPHIC] [TIFF OMITTED] T4892.045

[GRAPHIC] [TIFF OMITTED] T4892.046

[GRAPHIC] [TIFF OMITTED] T4892.047

[GRAPHIC] [TIFF OMITTED] T4892.048

[GRAPHIC] [TIFF OMITTED] T4892.049

[GRAPHIC] [TIFF OMITTED] T4892.050

[GRAPHIC] [TIFF OMITTED] T4892.051

[GRAPHIC] [TIFF OMITTED] T4892.052

[GRAPHIC] [TIFF OMITTED] T4892.053

[GRAPHIC] [TIFF OMITTED] T4892.054

[GRAPHIC] [TIFF OMITTED] T4892.055

[GRAPHIC] [TIFF OMITTED] T4892.056

[GRAPHIC] [TIFF OMITTED] T4892.057

[GRAPHIC] [TIFF OMITTED] T4892.058

[GRAPHIC] [TIFF OMITTED] T4892.059

[GRAPHIC] [TIFF OMITTED] T4892.060

[GRAPHIC] [TIFF OMITTED] T4892.061

[GRAPHIC] [TIFF OMITTED] T4892.062

[GRAPHIC] [TIFF OMITTED] T4892.063

[GRAPHIC] [TIFF OMITTED] T4892.064

[GRAPHIC] [TIFF OMITTED] T4892.065

[GRAPHIC] [TIFF OMITTED] T4892.066

[GRAPHIC] [TIFF OMITTED] T4892.067

[GRAPHIC] [TIFF OMITTED] T4892.068

[GRAPHIC] [TIFF OMITTED] T4892.069

[GRAPHIC] [TIFF OMITTED] T4892.070

[GRAPHIC] [TIFF OMITTED] T4892.071

[GRAPHIC] [TIFF OMITTED] T4892.072

[GRAPHIC] [TIFF OMITTED] T4892.073

[GRAPHIC] [TIFF OMITTED] T4892.074

[GRAPHIC] [TIFF OMITTED] T4892.075

[GRAPHIC] [TIFF OMITTED] T4892.076

[GRAPHIC] [TIFF OMITTED] T4892.077

[GRAPHIC] [TIFF OMITTED] T4892.078

[GRAPHIC] [TIFF OMITTED] T4892.079

[GRAPHIC] [TIFF OMITTED] T4892.080

[GRAPHIC] [TIFF OMITTED] T4892.081

[GRAPHIC] [TIFF OMITTED] T4892.082

[GRAPHIC] [TIFF OMITTED] T4892.083

[GRAPHIC] [TIFF OMITTED] T4892.084

[GRAPHIC] [TIFF OMITTED] T4892.085

[GRAPHIC] [TIFF OMITTED] T4892.086

[GRAPHIC] [TIFF OMITTED] T4892.087

[GRAPHIC] [TIFF OMITTED] T4892.088

[GRAPHIC] [TIFF OMITTED] T4892.089

[GRAPHIC] [TIFF OMITTED] T4892.090

[GRAPHIC] [TIFF OMITTED] T4892.091

[GRAPHIC] [TIFF OMITTED] T4892.092

[GRAPHIC] [TIFF OMITTED] T4892.093

[GRAPHIC] [TIFF OMITTED] T4892.097

[GRAPHIC] [TIFF OMITTED] T4892.098

[GRAPHIC] [TIFF OMITTED] T4892.099

[GRAPHIC] [TIFF OMITTED] T4892.100

[GRAPHIC] [TIFF OMITTED] T4892.101

[GRAPHIC] [TIFF OMITTED] T4892.102

[GRAPHIC] [TIFF OMITTED] T4892.103

[GRAPHIC] [TIFF OMITTED] T4892.104

[GRAPHIC] [TIFF OMITTED] T4892.105

[GRAPHIC] [TIFF OMITTED] T4892.121

[GRAPHIC] [TIFF OMITTED] T4892.122

[GRAPHIC] [TIFF OMITTED] T4892.123

[GRAPHIC] [TIFF OMITTED] T4892.106

[GRAPHIC] [TIFF OMITTED] T4892.107

[GRAPHIC] [TIFF OMITTED] T4892.108

[GRAPHIC] [TIFF OMITTED] T4892.109

[GRAPHIC] [TIFF OMITTED] T4892.110

[GRAPHIC] [TIFF OMITTED] T4892.111

[GRAPHIC] [TIFF OMITTED] T4892.112

[GRAPHIC] [TIFF OMITTED] T4892.113

[GRAPHIC] [TIFF OMITTED] T4892.114

[GRAPHIC] [TIFF OMITTED] T4892.115

[GRAPHIC] [TIFF OMITTED] T4892.116

[GRAPHIC] [TIFF OMITTED] T4892.117

[GRAPHIC] [TIFF OMITTED] T4892.118

[GRAPHIC] [TIFF OMITTED] T4892.119

[GRAPHIC] [TIFF OMITTED] T4892.120

                                 <all>

</pre></body></html>
